No. 19-490
In The

Supreme (Eourl af
Jonathan S. Metcalf,
Petitioner,
V.

Michael Fitzgerald, et al.,
Respondents.
CERTIFICATE OF SERVICE
I, Adam G. Unikowsky, hereby certify that I am a member of the Bar of this
Court, and that I have this 18th day of December 2019, caused three copies of the Reply
Brief In Support of Petition for a Writ of Certiorari to be served via overnight mail and
an electronic version of the document to be transmitted via the Court’s electronic filing
system to:
Brian Edward Tetreault
Morrison Mahoney LLP
One Constitution Plaza
10th Floor
Hartford, CT 06103
(860) 616-4441
btetreault@morrisonmahoney.com

Joseph Michael Musco
Musco & lassogna
555 Long Wharf Drive
10th Floor
New Haven, CT 06511
(203) 782-4151
joseph.musco@m-ilaw.com

Counsel for Respondents

Adam G. Unikowsky

t

